APPENDIX A

Supreme Judicial Court for the Commonwealth of Massachusetts
John Adams Courthouse
One Pemberton Square, Suite 1400, Boston, Massachusetts 02108-1724
Telephone 617-557-1020, Fax 617-557-1145

Stacia O'Neil
24 Milbem Avenue
Hampton, NH 03842

RE:

Docket No. FAR-27576

STACIA O'NEIL
vs.
MARISA BERQUIST & another

4

Suffolk Superior Court No. 1884CV01628
A.C. No. 2019-P-1442
NOTICE OF DENIAL OF APPLICATION FOR FURTHER APPELLATE REVIEW
Please take note that on October 1,2020, the application for further appellate review was
denied. (Budd, J., recused)
Francis V. Kenneally, Clerk
Dated: October 1,2020
To: Stacia O'Neil
Michael P. Johnson, Esquire
David M. Bae, Esquire
John P. Graceffa, Esquire
Nicollette Beth Dailey, Esquire

APPENDIX B

<*; .

NOTICE:
Summary decisions issued by the Appeals Court pursuant to its rule 1:28, as
amended by 73 Mass- App. Ct. 1001 (2009), are primarily directed to the parties and,
therefore, may not fully address the facts of the case or the panel’s decisional
rationale,
Moreover, such decisions are not circulated to the entire court and,
therefore, represent only the views of the panel that decided the case.
A summarydecision pursuant to rule 1:28 issued after February 25, 2008, may be cited for its
persuasive value but, because of the limitations noted above, not as binding precedent.
See Chace v. Curran, 71 Mass. App. Ct. 258, 260 n.4 (2008).

COMMONWEALTH OF MASSACHUSETTS
APPEALS COURT
19~p_1442
STACIA O'NEIL
vs.
MARISA BERQUIST & others.1
MEMORANDUM AND ORDER PURSUANT TO RULE 1:28
The plaintiff, Stacia O'Neil, brought this action seeking
to vacate an arbitration award.
the defendants

A Superior Court judge allowed

motion for summary judgment, concluding that

O'Neil's claims were untimely under the Uniform Arbitration Act
for Commercial Disputes (act), G. L. c. 251, and that, even if
timely, the claims failed on their merits.
Background.

We affirm.

The essential facts are undisputed.

In May

2015 defendant Marisa Berquist was driving her vehicle with
O'Neil seated in the passenger seat.

Another vehicle struck

Berquist's, causing both Berquist and O’Neil to sustain
injuries.

1 Commonwealth Mediation & Conciliation, Inc.; and Travelers
Indemnity Company of CT. See note 5, infra. As is our usual
practice, we take the defendants' names from the plaintiff's
complaints.

Berquist filed suit against the other driver, Robert
Perryman, who was insured by defendant Travelers Indemnity
Company of Connecticut (Travelers).

In October 2017 Berquist,

O'Neil, Perryman, and Travelers, along with their respective
counsel, attended a mediation.

Travelers agreed at the

mediation to pay $979,176.32, representing the balance of its
policy limits, to Berquist and O'Neil.

All of the parties then

signed an agreement (titled "Settlement Memorandum") in which
Berquist and O'Neil agreed to release Travelers and Perryman
from any claims arising out of the accident.

The agreement

further provided that "the allocation of [the $979,176.32
payment] is to be determined through agreement, or failing same,
binding arbitration between Marisa Berquist and Stacia O'Neil
which shall occur on a date prior to 12/25/17 with Judge Suzanne
V. DelVecchio."
When Berquist and O'Neil could not agree on how to divide
the payment, the matter was arbitrated on December 20, 2017,
before Judge DelVecchio.

Judge DelVecchio issued her award on

March 22, 2018, allocating $900,000 of the funds to Berquist and
$79,176 to O'Neil.

O'Neil initiated this action on May 29,

2018.
Discussion.

The act provides that an application to vacate

an arbitrator’s award "shall be made within thirty days after
delivery of a copy of the award to the applicant, but, if such

2

application is predicated upon corruption, fraud, or other undue
means, it shall be made within thirty days after such grounds
are known or should have been known,"

G. L. c. 251, § 12 (b) .

O'Neil does not contest that she failed to bring this action
within thirty days of receipt of the award, nor does she argue
that she has evidence of corruption, fraud, or other undue means
that would justify an extension of the act's limitations period.
Instead, she argues that the limitations period is not
applicable because the act governs only disputes that are
commercial in nature, which, she says, this dispute is not.
We agree with the defendants that O'Neil waived this
argument by not raising it in the Superior Court.

In fact, at

several points in the Superior Court proceeding, O'Neil made
statements to the effect that the act applied.

The issue is

thus waived and "may not be argued for the first time on
appeal."

Century Fire & Marine Ins. Corp, v. Bank of New

England-Bristol County, N.A., 405 Mass. 420, 421 n.2 (1989).2
O'Neil further argues that there was no binding agreement
to arbitrate and that the arbitrator therefore lacked
jurisdiction to issue the award.

But contrary to her assertion,

challenges to an arbitrator's jurisdiction are not exempt from
the thirty-day filing requirement of G. L. c. 251, § 12 (b).
2 The applicability of a statute of limitations is not a
jurisdictional issue and can be waived. See Silvestris v.
Tantasgua Regional Sch, Dist,, 446 Mass. 756,' 765 n.16 (2006).
3

See Local 589, Amalgamated Transit Union v, Massachusetts Bay
Transp. Auth., 397 Mass. 426, 431 (1986)
labor arbitration provision).

(analyzing cognate

In addition, this argument is

likewise waived because O’Neil did not raise it in the Superior
Court.3

We disagree with O'Neil’s assertion that she preserved

the issue by alleging in her original complaint that the
"[p]laintiff did not form a legal contract with CMCI
[Commonwealth Mediation & Conciliation, Inc.,] 1,4 and that the
"arbitration was invalid due to voidable contract and should be
strck [sic] as void."

Putting aside that the original complaint

was superseded by an amended complaint, these allegations did
not suffice to preserve the issue,‘as they refer to the
purported absence of a contract with CMCI, and not to the
agreement with Berquist.5

Moreover, O'Neil did not fairly raise

the issue at summary judgment, and it is evident from the
judge's decision that he was not on notice of it.

We note also

that O'Neil represented to the arbitrator that she did "not

3 The issue does not go to the subject matter jurisdiction of the
court. See Local 589, Amalgamated Transit Union, 397 Mass, at
431. Indeed,the act specifically enables a Superior Court
judge to vacate an arbitration order based on a claim that the
arbitrator exceeded her authority. See G. L. c. 251,
§ 12 (a) (3) .
4 CMCI is the company that provided the arbitrator.
5 The original complaint was brought against Berquist and CMCI,
but O'Neil later voluntarily dismissed CMCI and moved to add
Travelers as a defendant.
4

dispute that the arbitration agreement between herself and
Berquist is valid."
Although the judge did not err in dismissing the complaint
as untimely, we have considered O’Neil's remaining argument,
which is that the arbitrator abused her discretion in denying
O'Neil's request for a ninety-day continuance of the December
20, 2017, arbitration hearing.

Berquist opposed the continuance

partly on the ground that the arbitration agreement required
that the arbitration occur before December 25, 2017.

The

arbitrator did not abuse her discretion in determining that
O'Neil failed to show sufficient cause to deviate from the terms
of the agreement and denying O'Neil’s request for a continuance.
Judgment affirmed.
By the Court (Massing, Shin &
Ditkoff, JJ.6),
/

/'

/ -0 AM ''I''—■ i

c- \

Clerk
Entered:

June 1, 2020.

6 The panelists are listed in order of seniority.
5

‘

